Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




   WEST VIRGINIA STATE
 MEDICAID FRAUD CONTROL
 UNIT: 2013 ONSITE REVIEW




                        Stuart Wright
                  Deputy Inspector General for
                   Evaluation and Inspections

                        October 2013
                       OEI-07-13-00080
EXECUTIVE SUMMARY: WEST VIRGINIA STATE MEDICAID FRAUD
CONTROL UNIT: 2013 ONSITE REVIEW
OEI-07-13-00080

WHY WE DID THIS STUDY
The Office of Inspector General (OIG) oversees all Medicaid Fraud Control Units
(MFCU or Unit) with respect to Federal grant compliance. As part of this oversight, OIG
reviews all Units. These reviews assess Unit performance in accordance with the
12 MFCU performance standards and monitor Unit compliance with Federal grant
requirements.

HOW WE DID THIS STUDY
We based our review on an analysis of data from seven sources: (1) a review of policies
and procedures, and documentation on the Unit’s operations, staffing, and caseload; (2) a
review of financial documentation; (3) structured interviews with key stakeholders; (4) a
survey of Unit staff; (5) structured interviews with the Unit’s management; (6) an onsite
review of case files; and (7) an onsite review of Unit operations.

WHAT WE FOUND
For Federal fiscal years 2010 through 2012, the Unit reported combined civil and
criminal recoveries of nearly $46 million and 20 convictions. Our review identified
instances in which the Unit did not fully meet Federal regulations or performance
standards, and we also identified opportunities for improvement. For example, the time
from the Unit’s receipt of a referral to the opening of a case exceeded the 60-day
investigative timeframe in 70 percent of cases, and case activities and reviews were not
adequately documented. Additionally, in 10 of 20 instances, the Unit sent an exclusion
referral more than 30 days after sentencing, which could allow convicted individuals to
inappropriately bill and be paid by Medicaid and other Federal healthcare programs. The
Unit did not provide OIG and other Federal agencies with timely information concerning
significant actions in cases. The Unit also had an inadequate case management tracking
system, reported inaccurate recovery data in Quarterly Statistical Reports, and did not
have complete inventory logs. However, the Unit has made improvements to its
operating processes over the past year.

WHAT WE RECOMMEND
Based on these findings, the Unit should work to ensure compliance with each of the
12 performance standards. For example, the Unit should (1) make certain that cases are
opened within 60 days of the receipt of referral; (2) investigative activity is adequately
documented; (3) individuals are referred for the purpose of program exclusion to OIG
within the appropriate timeframe; (4) share cases lists with OIG as agreed; (5) develop an
adequate case management tracking system; (6) submit accurate Quarterly Statistical
Reports; and (7) ensure inventory logs are complete. The West Virginia Unit concurred
with all eight of our recommendations.
TABLE OF CONTENTS
Objective ......................................................................................................1 

Background ..................................................................................................1 

Methodology ................................................................................................4 

Findings........................................................................................................8 

           For FYs 2010 through 2012, the West Virginia Unit reported 

           combined civil and criminal recoveries of nearly $46 million 

           and 20 criminal convictions .............................................................8

           The time from receipt of referral to the opening of the case 

           exceeded 60 days for 70 percent of cases; two cases were open 

           for an extended period and lacked documentation of case 

           progression.......................................................................................9 

           Case files lacked documentation of supervisory approval for
           key stages of investigations and periodic reviews .........................10 

           The Unit made all required referrals to OIG for program

           exclusions; however, in 10 of 20 instances, the Unit sent the 

           referral more than 30 days after sentencing ...................................10 

           The Unit did not provide OIG and other Federal agencies 

           with timely information concerning significant actions in cases 

           pursued by the Unit........................................................................11

           The Unit’s case management and tracking system was 

           inadequate ......................................................................................11

           The Unit reported inaccurate recovery data ...................................12 

           The Unit’s inventory logs did not include all property purchased 

           by the Unit......................................................................................12 

           Other observations: Unit improvements, managed care referrals, 

           and wireless technology.................................................................13 

Conclusion and Recommendations ............................................................15 

Unit Comments and Office of Inspector General Response ......................17 

Appendixes ................................................................................................19 

           A: 1994 Performance Standards ...................................................19 

           B: 2012 Revised Performance Standards ......................................23 

           C: Population and Sample Distribution of Case Files Open 

           Any Time During Fiscal Years 2010 Through 2012 ......................30 

          D: Investigations Opened and Closed By Provider Category 

          for Fiscal Years 2010 Through 2012 ..............................................31 

          E: Point Estimates and 95-Percent Confidence Intervals Based 

          on Our Reviews of Case Files........................................................33 

          F: Medicaid Fraud Control Unit Referrals by Provider Category 

          for Fiscal Years 2010 Through 2012 ..............................................34 

          G: Unit Comments ........................................................................35 

Acknowledgments......................................................................................42 

                   OBJECTIVE
                   To conduct an onsite review of the West Virginia State Medicaid Fraud
                   Control Unit (MFCU or Unit).

                   BACKGROUND
                   The mission of State MFCUs, as established by Federal statute, is to
                   investigate and prosecute Medicaid provider fraud and patient abuse and
                   neglect under State law.1 Under the Medicaid statute, each State must
                   maintain a certified Unit, unless the Secretary of Health and Human
                   Services determines that operation of a Unit would not be cost effective
                   because (1) minimal Medicaid fraud exists in that State; and (2) the State
                   has other, adequate safeguards to protect Medicaid beneficiaries from
                   abuse and neglect.2 Currently, 49 States and the District of Columbia
                   (States) have created such Units.3 In Federal fiscal year (FY)4 2012,
                   combined Federal and State grant expenditures for the Units totaled
                   $217.3 million, and Units employed 1,901 individuals.
                   To carry out its duties and responsibilities in an effective and efficient
                   manner, each Unit must employ an interdisciplinary staff that consists of at
                   least an investigator, an auditor, and an attorney.5 Unit staff review
                   complaints provided by the State Medicaid agency and other sources and
                   determine the potential for criminal prosecution. In FY 2012, the 50 Units
                   obtained 1,337 convictions and 823 civil settlements or judgments.6 That
                   year, the Units reported recoveries of more than $2.9 billion.7
                   The Unit must be in an office of the State Attorney General’s office,
                   another State government office with statewide prosecutorial authority, or
                   operate under a formal arrangement with the State Attorney General’s
                   office.8 Units are required to have either Statewide authority to prosecute


                   1
                     Social Security Act (SSA) § 1903(q)(3).

                   2
                     SSA §§ 1902(a)(61). Regulations at 42 CFR § 1007.11(b)(1) add that the Unit’s 

                   responsibilities may include reviewing complaints of misappropriation of patients’ 

                   private funds in residential health care facilities. 

                   3
                     North Dakota and the territories of American Samoa, Guam, the Northern Mariana 

                   Islands, Puerto Rico, and the U.S. Virgin Islands have not established Units.
                   4
                     FY references in this report are based on the Federal FY (October 1 through

                   September 30).

                   5
                     SSA § 1903(q)(6) and 42 CFR § 1007.13.

                   6
                     OIG, State Medicaid Fraud Control Units Fiscal Year 2012 Grant Expenditures and 

                   Statistics. Accessed at http://oig.hhs.gov/fraud/medicaid-fraud-control-units-mfcu/ on

                   March 7, 2013. 

                   7
                     Ibid. 

                   8
                     59 Fed. Reg. 49080 (Sept. 26, 1994). Accessed at http://oig.hhs.gov on March 7, 2013. 



West Virginia State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-07-13-00080)                     1
                   cases or formal procedures to refer suspected criminal violations to an
                   office with such authority.9 In 44 States, the Units are located within
                   offices of State Attorneys General; in the remaining 6 States, including
                   West Virginia, the Units are located in other State agencies.10 Generally,
                   Units outside of the offices of State Attorneys General must refer cases to
                   other offices with prosecutorial authority.
                   Each Unit must be a single identifiable entity of State government, distinct
                   from the State Medicaid agency, and each Unit must develop a formal
                   agreement—i.e., a Memorandum of Understanding (MOU)—that
                   describes the Unit’s relationship with that agency.11
                   Oversight of the MFCU Program
                   The Secretary of Health and Human Services delegated to OIG the
                   authority to both annually certify the Units and to administer grant awards
                   to reimburse States for a percentage of their costs in operating certified
                   Units.12 All Units are currently funded by the Federal Government on a
                   75-percent matching basis, with the States contributing the remaining
                   25 percent.13 To receive Federal reimbursement, each Unit must submit an
                   initial application to OIG.14 OIG reviews the application and notifies the
                   Unit if the application is approved and the Unit is certified. Approval and
                   certification are for a 1-year period; the Unit must be recertified each year
                   thereafter.15
                   Under the Medicaid statute, States must operate Units that effectively
                   carry out their statutory functions and meet program requirements.16 OIG
                   developed and issued 12 performance standards to further define the
                   criteria it applies in assessing whether a Unit is effectively carrying out
                   statutory functions and meeting program requirements.17 Examples of

                   9
                     SSA § 1903(q)(1). 

                   10
                      The Units share responsibility for protecting the integrity of the Medicaid program with

                   the section of the State Medicaid agency that functions as the Program Integrity Unit. 

                   Some States also employ a Medicaid Inspector General who conducts and coordinates the 

                   State agency’s activities to combat fraud, waste, and abuse in this area. 

                   11
                      SSA § 1903(q)(2); 42 CFR §§ 1007.5 and 42 CFR § 1007.9(d). 

                   12
                      The portion of funds reimbursed to States by the Federal Government for its share of

                   expenditures for the Federal Medicaid program, including the MFCUs, is called Federal

                   Financial Participation (FFP). 

                   13
                      SSA §§ 1903(a)(6)(B). 

                   14
                      42 CFR § 1007.15(a).

                   15
                      42 CFR § 1007.15(b) and (c).

                   16
                      SSA § 1902(a)(61). 

                   17
                      59 Fed. Reg. 49080 (Sept. 26, 1994). Accessed at http://oig.hhs.gov on November 22, 

                   2011. Note that the Office of Inspector General (OIG) published revised performance 

                   standards on June 1, 2012. (See 77 Fed. Reg. 32645.) The standards referred to in this

                   report are those from 1994, which were in effect at the time of our review. We apply the 

                   2012 performance standards in the report recommendations, where appropriate. 


West Virginia State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-07-13-00080)                       2
                   criteria include maintaining an adequate caseload through referrals from
                   several sources, maintaining an annual training plan for all professional
                   disciplines, and establishing policy and procedure manuals to reflect the
                   Unit’s operations. See Appendix A for a complete list of the
                   1994 performance standards used for this review and Appendix B for a
                   complete list of the 2012 performance standards.
                   West Virginia State MFCU
                   The West Virginia Unit is located within the Department of Health and
                   Human Resources, Office of Inspector General. The Unit is authorized to
                   investigate and refer for prosecution cases of Medicaid fraud and of
                   patient abuse and neglect. The Unit does not have its own prosecutorial
                   authority. Abuse and neglect prosecutions are handled by each of the
                   individual county prosecuting attorneys. According to West Virginia State
                   law, Medicaid fraud cases may be prosecuted in the circuit court of
                   Kanawha County, where the State capital of Charleston is located; the
                   county in which the defendant conducts business; the county in which the
                   offense was committed; or other venues provided by State law.18, 19 At the
                   time of our review, the Unit’s 16 employees were located in Charleston.
                   For FY 2012, the West Virginia Unit was authorized $1,455,192 in Federal
                   funds and expended a total of $1,043,589 in combined Federal and State
                   funds. Total Medicaid expenditures in West Virginia increased from
                   $2.7 billion in FY 2010 to $2.9 billion in FY 2012.
                   The Unit receives referrals of fraud, abuse, or neglect from the State
                   Medicaid agency, State Survey and Certification agency, contractors,
                   telephone calls to the Unit’s Tip Line, and a fraud reporting form located
                   on the Unit’s Web site.20 For FYs 2010 through 2012, the Unit received an
                   average of 245 referrals each year.
                   The Unit office assistant routes the referrals to the supervisory
                   investigators. The supervisors review the referrals and returns them to the
                   office assistant with a notation to take one of the following actions:
                   (1) enter the case into the online case-tracking system and assign it to an
                   investigator; (2) if the case is not going to be assigned immediately, enter
                   the case into the online case-tracking system and return it to the submitting


                   18
                      See West Virginia Code § 9-7-5A.

                   19
                      The Unit’s decision as to where to refer a case for prosecution depends on multiple 

                   factors: the prosecutor’s expertise and his or her working relationship with the Unit,

                   notoriety of the defendant(s) in the community, the number of cases in which the 

                   defendant is currently a party, current resources and case loads of prosecutors, 

                   complexity of the case, and the availability of witnesses. Additionally, if a case of abuse, 

                   neglect, or financial exploitation contains elements of Medicaid fraud, the Unit pursues 

                   the entire matter in the county in which the conduct occurred. 

                   20
                      Accessed at https://www.wvdhhr.org/oig/mfcu/secRepFrd/ on April 15, 2013. 


West Virginia State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-07-13-00080)                         3
                   supervisor; (3) enter the case into the online case-tracking system and
                   close it for lack of jurisdiction; or (4) enter the case, close it, and refer the
                   case to the appropriate agency.
                   West Virginia’s Medicaid population is served primarily through managed
                   care organizations (MCOs). West Virginia’s Medicaid managed care
                   program, Mountain Health Trust, contracts with and pays MCOs a
                   monthly capitated rate for beneficiaries enrolled in each MCO.21 Each
                   MCO contracts with and pays medical providers to provide services to
                   those beneficiaries. West Virginia contracts with three MCOs: Coventry
                   Health Care of West Virginia, The Health Plan of the Upper Ohio, and
                   Unicare.22 Approximately 236,067 members were enrolled in
                   West Virginia MCOs as of FY 2012, constituting about 55 percent of
                   West Virginia’s Medicaid enrollees.23
                   Previous Review
                   In 2007, OIG conducted an onsite review of the West Virginia Unit and
                   found that (1) the Unit did not submit Quarterly Statistical Reports (QSRs)
                   on a timely basis, (2) the information contained in QSRs was inaccurate
                   and required frequent revisions; (3) the Unit did not have an automated,
                   computerized case tracking and management system; and (4) the Unit did
                   not note the final disposition of cases in case files.
                   In the Unit director’s response to the 2007 onsite review, he responded to
                   OIG that future quarterly reports would be accurate and submitted on a
                   timely basis. OIG recommended that the Unit (1) install a computerized
                   case management and tracking system and (2) include a closing
                   memorandum in case files to notate the final disposition of an
                   investigation.

                   METHODOLOGY
                   Our review covered the 3-year period of FYs 2010 through 2012. We
                   based our review on an analysis of data from seven sources: (1) a review
                   of policies and procedures and of documentation of the Unit’s operations,
                   staffing, and caseload for FYs 2010 through 2012; (2) a review of
                   financial documentation for FYs 2010 through 2012; (3) structured
                   interviews with key stakeholders; (4) a survey of Unit staff; (5) structured
                   interviews with the Unit’s management; (6) an onsite review of case files

                   21
                      West Virginia Bureau for Medical Services, Mountain Health Trust (Managed Care),
                   accessed at http://www.dhhr.wv.gov on February 23, 2013. 

                   22
                      After the close of FY 2011, beneficiaries in West Virginia’s Berkeley, Hampshire, 

                   Jefferson, Mineral, and Morgan counties were required to enroll in an MCO, causing the 

                   number of MCO enrollees to increase from 170,000 in FY 2011 to 236,000 in FY 2012. 

                   23
                      Accessed at http://www.medicaid.gov on February 23, 2013.

West Virginia State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-07-13-00080)                    4
                   that were open at any time in FYs 2010 through 2012; and (7) an onsite
                   review of Unit operations. We conducted our fieldwork in February 2013.
                   Although interview and survey respondents occasionally provided
                   information that fell outside of our 3-year review period, we used this
                   information to further explain the results of our analyses covering
                   FYs 2010 through 2012. As relevant, we also included observations we
                   made while onsite in February 2013.
                   We analyzed data from all seven sources to describe the caseload and
                   assess the performance of the Unit. We also analyzed the data to identify
                   any opportunities for improvement and any instances in which the Unit
                   did not fully meet the performance standards or was not operating in
                   accordance with laws, regulations, and policy transmittals.24 In addition,
                   we noted practices that appeared to be beneficial to the Unit. We based
                   these observations on statements from Unit staff, data analysis, and our
                   own judgment. We did not independently verify the effectiveness of these
                   practices, but included the information because it may be useful to other
                   Units in their operations.
                   Data Collection and Analysis
                   Review of Unit Documentation. Prior to the onsite visit, we analyzed
                   information from several sources regarding the Unit’s investigation and
                   referral for prosecution of Medicaid cases. Specifically, we collected and
                   analyzed information about the number of referrals the Unit received, the
                   number of investigations the Unit opened and closed, the outcomes of
                   those investigations, and the Unit’s case mix. We also collected and
                   analyzed information about the number of cases that the Unit referred for
                   prosecution and the outcomes of those prosecutions. We gathered this
                   information from several sources, including the Unit’s QSRs, annual
                   reports, recertification questionnaire, policy and procedures manuals,
                   MOU with the State Medicaid agency, and the 2007 report on OIG’s
                   onsite review. Additionally, we confirmed with the Unit director that the
                   information we had was current as of February 2013 and, as necessary,
                   requested any additional data or clarification.
                   Review of Fiscal Control. We reviewed the Unit’s control over its fiscal
                   resources to identify any internal control issues or other issues involving
                   use of resources. Prior to the onsite review, we reviewed the Unit’s
                   financial policies and procedures; its response to an internal control
                   questionnaire; and documents (such as financial status reports) related to
                   MFCU grants. During the onsite review, we reviewed a sample of the


                   24
                      All relevant regulations, statutes, and policy transmittals are available online at
                   http://oig.hhs.gov.

West Virginia State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-07-13-00080)                       5
                   Unit’s purchase and travel transactions. In addition, we reviewed vehicle
                   records, the equipment inventory, and a sample of time and effort records.
                   Interviews with key stakeholders. In December 2012, we interviewed key
                   stakeholders, such as officials in the United States Attorneys’ Offices, the
                   West Virginia Department of Health and Human Resources and its Office of
                   Inspector General, and other agencies that interacted with the Unit (i.e., the
                   State Ombudsman, the Office of Health Facility Licensure and Certification,
                   and the Insurance Commissioner). We focused these interviews on the
                   Unit’s relationship and interaction with OIG and other Federal and State
                   authorities, and we identified opportunities for improvement. We used the
                   information collected from these interviews to develop subsequent interview
                   questions for Unit management.
                   Survey of Unit staff. In December 2012, we administered an electronic
                   survey of all nonmanagerial Unit staff within each professional discipline
                   (i.e., investigators, auditors, and attorneys) as well as support staff. The
                   response rate was 100 percent. Our questions focused on operations of the
                   Unit, opportunities for improvement, and practices that contributed to the
                   effectiveness and efficiency of Unit operations and/or performance. The
                   survey also sought information about the Unit’s compliance with
                   applicable laws and regulations.
                   Onsite interviews with Unit management. We conducted structured
                   interviews with the Unit’s management in February 2013. We interviewed
                   the Unit director, the Deputy Director (who also served as the Unit’s lead
                   attorney), and the two supervisory investigators. We asked these
                   individuals to provide additional information to better illustrate the Unit’s
                   operations, identify opportunities for improvement, identify practices that
                   contributed to the effectiveness and efficiency of Unit operations and/or
                   performance, and clarify information obtained from other data sources.
                   Finally, we discussed with Unit management the status of their actions
                   with respect to recommendations from the 2007 report; we describe these
                   actions in the findings section of this report.
                   Onsite review of case files and other documentation. We selected a simple
                   random sample of 100 case files from the 198 cases that were open at
                   some point during FYs 2010 through 2012. We reviewed all sampled case
                   files for documentation of supervisory reviews for the opening and closing
                   (as appropriate) of cases, as well as to see whether supervisors conducted
                   periodic case file reviews. From these 100 case files, we selected a further
                   random sample of 50 files for a more in-depth review of selected issues,
                   such as the timeliness of investigations and case development. We
                   projected the results of our case file reviews to the population of Unit


West Virginia State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-07-13-00080)         6
                   cases. See Appendix C for the distribution of case files from the
                   population and sample.
                   Onsite Review of Unit Operations. During our February 2013 site visit,
                   we reviewed the Unit’s workspace and operations. Specifically, we
                   visited the Unit headquarters in the State Capital; we did not visit Unit
                   staff who worked remotely in Department of Health and Human
                   Resources offices. While onsite, we observed the Unit’s offices and
                   meeting spaces, security of data and case files, location of select
                   equipment, and the general functioning of the Unit.
                   Standards
                   This study was conducted in accordance with the Quality Standards for
                   Inspection and Evaluation issued by the Council of the Inspectors General
                   on Integrity and Efficiency.




West Virginia State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-07-13-00080)          7
                   FINDINGS
                   For FYs 2010 through 2012, the West Virginia Unit
                   reported combined civil and criminal recoveries of
                   nearly $46 million and 20 criminal convictions
                   The Unit reported total combined criminal and civil recoveries of nearly
                   $46 million for FYs 2010 through 2012. Recoveries decreased from
                   $18 million in FY 2010 to $11 million in FY 2012 as a result of reduced
                   recoveries through global settlements in 2012.25 Although overall
                   recoveries were less in 2012, the Unit obtained a greater percentage of
                   recoveries from State investigations than in the 2 years prior. In FY 2010,
                   approximately 15 percent of total recoveries were attributable to
                   non-“global” cases; however, in FY 2012, that figure increased to
                   37 percent. Refer to Table 1 for details regarding criminal and civil
                   recoveries.
                   Table 1: West Virginia MFCU Criminal and Civil Recoveries,
                   FYs 2010–2012.

                    Type of                                                                              Total
                                                  FY 2010            FY 2011             FY 2012
                    Recovery                                                                        Recoveries

                    Criminal
                                               $1,074,058            $256,964              $3,490    $1,334,512
                    Recoveries
                    Global
                                             $15,635,038         $14,438,712          $7,058,873    $37,132,623
                    Recoveries

                    Non-Global
                                               $1,721,104          $1,352,301         $4,186,740     $7,260,145
                    Civil Recoveries

                        Total
                                             $18,430,200         $16,047,977         $11,249,103    $45,727,280
                        Recoveries

                   Source: OIG review of Unit self-reported QSR and other data, FYs 2010–2012.



                   During the review period, the Unit closed 120 investigations with
                   21 individuals charged, obtained 20 criminal convictions, and obtained




                   25
                     “Global” cases are civil false-claims actions involving the U.S. Department of Justice
                   and other State MFCUs. The National Association of Medicaid Fraud Control Units
                   facilitates the settlement of global cases.

West Virginia State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-07-13-00080)                             8
                   2 dismissals.26 See Appendix D for details on investigations opened and
                   closed by provider category for FYs 2010 through 2012.

                   The time from receipt of referral to the opening of the
                   case exceeded 60 days for 70 percent of cases; two
                   cases were open for an extended period and lacked
                   documentation of case progression
                   According to Performance Standard 6(a), each stage of an investigation
                   and prosecution should be completed in an appropriate timeframe. The
                   Unit’s policy requires that no more than 60 days elapse between the
                   receipt of a referral and the opening of a case (i.e., the preliminary
                   investigation period). Our review revealed that 70 percent of referrals
                   remained in the preliminary investigation status beyond the 60-day
                   timeframe. The median time from receipt of referral to opening the case
                   was 91 days. Some referrals were received by the Unit but not opened as
                   cases for several months, during which time Unit staff conducted no
                   apparent investigative activity. In other instances, the Unit conducted
                   investigative activity; however, this activity was conducted after 60 days
                   from receipt of referrals. See Appendix E for information regarding the
                   time from receipt of referral to the opening of cases. Later, when those
                   cases were documented in the case-tracking system as having been
                   opened, we could find only limited documentation in the case opening
                   memorandum accounting for investigative activity that had occurred while
                   the case was in a preliminary investigation status (i.e., the period between
                   receipt of referral and opening of the case). Three cases were open for an
                   extended period without any documented investigative progress; one case
                   was left open for 210 days and the other two cases for over 240 days. We
                   could find no evidence in the case files to support those delays.

                   Case files lacked documentation of supervisory
                   approval for key stages of investigations and periodic
                   reviews
                   According to Performance Standards 6(b) and (c), Unit supervisors must
                   approve the opening and closing of investigations and conduct periodic
                   supervisory reviews that are documented in the case files. Twenty percent
                   of the Unit’s case files did not contain evidence to support supervisory

                   26
                     According to Unit staff, the number of people charged in a given time period will not
                   equal the sum of convictions, acquittals, and dismissals for that same period. Some of the
                   20 individuals convicted during the review period were charged prior to the review
                   period—for example, one suspect was charged in September 2009, prior to the review
                   period, but was convicted in December 2009. Additionally, some of the individuals
                   charged during the review period had not had their cases fully adjudicated by the end of
                   the review period.

West Virginia State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-07-13-00080)                      9
                   approval of opening the case, and 27 percent of cases lacked supervisory
                   approval of closing the case. The Unit did not file case documents in a
                   consistent order, and did not place forms and documents in the case file
                   with any consistency. Additionally, the Unit did not document contact
                   between Unit staff and other Federal agencies. However, all sampled
                   cases opened after April 2011 noted supervisory approval of the case
                   opening; all sampled cases closed after August 2011 noted supervisory
                   approval of the case closing. The Unit indicated that it had developed a
                   case review form to ensure that each stage of an investigation and
                   prosecution is completed in the appropriate timeframe.
                   Unit policy required that abuse and neglect cases receive monthly
                   supervisory review and that fraud cases receive a supervisory review at the
                   end of each quarter. Seventy-three percent of abuse and neglect cases
                   were missing periodic supervisory reviews and 34 percent of fraud cases
                   were missing periodic supervisory reviews. In total, 56 percent of cases
                   were missing periodic supervisory reviews.27 See Appendix E for
                   information regarding missing opening, closing, and periodic review
                   documentation.
                   The Unit did not document its participation in National Association of
                   Medicaid Fraud Control Units Global cases. Unit staff did not document
                   actions taken by the Unit to assist or participate in global cases. Also, it
                   did not appear that the Unit had a system in place to account for the final
                   signed settlement agreements for global cases. These documents are
                   essential should the Unit ever wish to pursue further legal action (e.g.,
                   defendant defaults on agreement).

                   The Unit made all required referrals to OIG for
                   program exclusions; however, in 10 of 20 instances,
                   the Unit sent the referral more than 30 days after
                   sentencing
                   According to Performance Standard 8(d), for purpose of program
                   exclusions under section 1128 of the Social Security Act, the Unit must
                   transmit to OIG the reports of convictions and copies of Judgment and
                   Sentence or other acceptable documentation within 30 days or other
                   reasonable time period. The Unit reported 20 convictions in the 3-year
                   period, and made all required referrals to the OIG. However, in 10 of
                   20 cases, the Unit sent the referral to OIG for exclusion more than 30 days
                   after sentencing. The amount of days between the sentencing and referral

                   27
                     For the purposes of this report, supervisory approval to open and close a case does not
                   constitute a case file review. Periodic supervisory review indicates that a supervisor
                   reviewed a case more than once between the opening and closing of the case.

West Virginia State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-07-13-00080)                      10
                   in these cases ranged from 38 to 385 days. During our onsite interview,
                   the Unit director attributed this delay to the Unit’s lack of prosecution
                   authority and prosecutors not reporting back to the Unit regarding the
                   disposition of cases. As a result, the Unit inquires with county prosecutors
                   as to when defendants are sentenced but does not always receive a
                   response. The Unit plans to employ a paralegal to make regular inquiries
                   in the future.

                   The Unit did not provide OIG and other Federal
                   agencies with timely information concerning
                   significant actions in cases pursued by the Unit
                   According to revised Performance Standard 8(b), a unit should cooperate
                   and, as appropriate, coordinate with OIG’s Office of Investigations (OI)
                   and other Federal agencies on cases being pursued jointly, cases involving
                   the same suspects or allegations, and cases that have been referred to the
                   Unit by OIG or another Federal agency. OIG and other Federal agencies
                   reported that the Unit has not routinely shared information about targets of
                   investigations in a timely manner unless the agencies specifically request
                   such information. In June 2012, the Unit director met with the Special
                   Agent in Charge for OI’s Region 3 to discuss shared cases and general
                   information about how the offices can best work together to maximize
                   resources. The Unit director stated that the two offices have developed a
                   plan to share caseload lists. In May 2013, the Unit began informing OIG
                   of the cases that the Unit is pursuing, so as to avoid potential conflicts.
                   In the past, the Unit as well as the Northern and Southern Assistant United
                   States Attorneys (AUSAs) jointly worked on the detection, development,
                   and prosecution of Medicaid cases from the opening of the cases until
                   their final dispositions, and the Unit provided six recent Department of
                   Justice press releases giving credit to the Unit in several investigations.
                   However, both the Northern and Southern Offices of United States
                   Attorneys reported that they are no longer involved in the Unit’s
                   investigations or prosecutions. Although the AUSAs in these offices
                   receive the information they request from the Unit, they report that
                   investigations are “no longer a collaborative effort.”

                   The Unit’s case management and tracking system was
                   inadequate
                   According to Performance Standard 3(b), a unit should have an adequate,
                   computerized case management and tracking system in place. However,
                   Unit staff reported that the their computerized case management and
                   tracking system regularly lost data and merged case file information from
                   unrelated cases. The Unit created parallel spreadsheets to compensate for

West Virginia State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-07-13-00080)        11
                   the system’s inadequacies. One respondent to the staff survey reported:
                   “The case-tracking system is a huge hindrance; it is old, slow and doesn’t
                   work half the time.” Another staff member reported that the case-tracking
                   system is not always accessible and that logging in is difficult. The Unit
                   has selected a new case management system that should be operational in
                   the summer of 2014. The problems that our 2007 onsite review found
                   with the case management and tracking system remain unresolved.

                   The Unit reported inaccurate recovery data
                   According to Performance Standard 7, a unit should have a process for
                   monitoring the outcome of cases, including the amount of fines and
                   restitution ordered as well as the amount of civil recoveries. In
                   December 2006, representatives of OIG conducted a conference call with
                   the Unit director, the chief investigator, and an administrative services
                   assistant to educate them on preparing the QSRs and ensuring that the
                   reports were correct. The individual serving as the Unit director at that
                   time stated that the Unit would work diligently to ensure that all future
                   QSRs would be accurate and submitted to OIG on a timely basis.
                   During the course of our review, we identified numerous errors in the
                   recovery statistics reported by the Unit. For example, we identified a
                   $500,000 discrepancy for FY 2010 after reviewing the Unit’s QSR and the
                   data we collected directly from the Unit at the outset of our review. The
                   QSR reflected that total criminal case outcomes for FY 2010 totaled
                   $529,000; however, after our inquiries, the Unit revised the total to
                   indicate that total criminal case outcomes for FY 2010 totaled nearly
                   $1.1 million. Additionally, the Unit’s QSR showed that total criminal
                   recoveries for FY 2011 were $33,367; however, the Unit later provided
                   information indicating that the total criminal recoveries for FY 2011 were
                   $257,000. These errors required the Unit to revise QSRs for FYs 2010,
                   2011, and 2012.
                   The Unit had to develop multiple spreadsheets in an attempt to adequately
                   capture all recovery data because the current case-tracking system was
                   inadequate.
                   The problems that our 2007 onsite review found with the reporting of
                   inaccurate recovery data remain unresolved.

                   The Unit’s inventory logs did not include all property
                   purchased by the Unit
                   According to the 2012 version of Performance Standard 11(b), a unit
                   should maintain an equipment inventory that is updated regularly to reflect
                   all property under the Unit’s control. To determine compliance with

West Virginia State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-07-13-00080)       12
                   applicable laws and regulations, as well as to determine the need for
                   additional internal controls, we performed a limited review of financial
                   documents from the Unit and of the Unit’s equipment inventory and
                   purchase records. During our onsite review, we observed that the
                   following items were not included in the inventory report: a customized
                   office chair, two printers, a paper shredder, and an identification card
                   system. Additionally, we identified an equipment storage room that
                   housed various other property purchased by the Unit, and the items located
                   in this room were not included in the inventory logs. However, the items
                   we selected for review were included in the appropriate log.
                   Units must take appropriate measures to ensure that they are able to
                   maintain effective control and accountability for property purchased.
                   According to Unit staff, physical inventories of property occur annually.
                   The Unit’s logistics manager told us that although physical inventories
                   were conducted during his tenure, the results of those inventories were not
                   reconciled with equipment records. However, inventory is reconciled to a
                   system maintained by the Department of Health and Human Resources.
                   The logistics manager stated that he had “no projected timeframe” as to
                   when this task will be completed.

                   Other observations: Unit improvements, managed
                   care referrals, and wireless technology
                   Unit improvements
                   During 2012, the Unit made many improvements to its operating
                   processes. In September 2012, two individuals in the Unit passed
                   examinations to become certified fraud examiners so as to assist the Unit
                   with analyzing fraud cases. Another individual obtained certification as a
                   Certified Coding Professional. Unit investigators performed outreach at
                   nursing homes, such as distributing brochures and Unit contact
                   information.
                   In January 2011, the State Medicaid agency began using a Medicaid Fraud
                   Referral Form developed to streamline the referral of cases from the State
                   Medicaid agency to the Unit.28 The Unit modified this form to include all
                   information necessary for the Unit to proceed with an investigation after
                   receiving the initial referral. Additionally, Unit staff reported that the Unit

                   28
                     Accessed at http://www.cms.gov/Medicare-Medicaid-Coordination/Fraud-
                   Prevention/FraudAbuseforProfs/Downloads/WVfy13.pdf on April 16, 2013. According
                   to CMS, West Virginia’s Medicaid Fraud Referral Form incorporates all of the criteria in
                   CMS’ September 2008 guidance document Performance Standard for Referrals of
                   Suspected Fraud from a Single State Agency to a Medicaid Fraud Control Unit. The
                   guidance was adopted in Federal regulations at 42 CFR 455.436 effective March 25,
                   2011.

West Virginia State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-07-13-00080)                    13
                   has increased its interaction and improved its communication with the
                   State Medicaid agency. For example, Unit staff met with the State
                   Medicaid Agency staff each month to discuss referrals.
                   Managed care referrals
                   According to the 2012 version of Performance Standard 4(a), the Unit
                   should take steps—such as the development of operational protocols—to
                   ensure that the State Medicaid agency, managed care organizations, and
                   other agencies refer to the Unit all cases of suspected provider fraud. In
                   West Virginia, 55 percent of Medicaid enrollees receive their health care
                   services through MCOs.29 However, in FYs 2010 through 2012, QSRs
                   reflected that the Unit opened only one MCO case during our review
                   period. The Unit director reported that as MCO enrollment grows, the
                   Unit has begun meeting with MCO administrators to obtain referrals.30
                   See Appendix F for information on referrals by provider category.
                   Wireless technology
                   Unit management reported that it is unable to obtain wireless technology
                   for investigative staff. The Unit investigates cases Statewide, and staff
                   may be on the road for days at a time but still have a need to stay in touch
                   with the office, their colleagues, and other law enforcement personnel.
                   Unit management reported that there have been instances in which the
                   lack of availability of information in the field has been detrimental to Unit
                   investigators. These instances include an inability to scan documentary
                   evidence, communicate through email or text messaging (e.g., while
                   executing a search warrant or during other activities at a suspect’s
                   location), and access applications (e.g., flashlight, notepad, camera,
                   audio/video, calculator, GPS, Emergency Alert System, and a translator in
                   the event the investigators have to interview someone who does not speak
                   English).




                   29
                      Medicaid.gov, West Virginia Medicaid Statistics, accessed at
                   http://www.medicaid.gov/ on February 20, 2013. 

                   30
                      After the close of FY 2011, beneficiaries in West Virginia’s Berkeley, Hampshire, 

                   Jefferson, Mineral, and Morgan counties were required to enroll in an MCO, causing the 

                   number of MCO enrollees to increase from 170,000 in FY 2011 to 236,000 in FY 2012. 


West Virginia State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-07-13-00080)                    14
                   CONCLUSION AND RECOMMENDATIONS
                   For FYs 2010 through 2012, the Unit reported combined civil and criminal
                   recoveries of nearly $46 million. During the review period, the Unit
                   closed 120 investigations with 21 individuals charged, obtained
                   20 criminal convictions, and obtained 2 dismissals. In January 2011, the
                   Unit adopted a standardized referral form that helps to ensure that all
                   pertinent information is now included in referrals. Other agencies have
                   reported that in the past year, the Unit’s interactions and communication
                   with them have markedly improved.
                   However, our review identified instances in which the Unit did not fully
                   meet performance standards and identified opportunities for improvement.
                   Specifically, in 70 percent of cases, the time from the Unit’s receipt of a
                   referral to the opening of the case exceeded the 60-day investigative
                   timeframe established by the Unit. Fifty-six percent of case files lacked
                   evidence of supervisory review and approval for key stages of
                   investigations. The Unit made all required referrals to OIG for program
                   exclusion, but in 10 of 20 instances, the Unit sent the referral more than
                   30 days after sentencing.
                   Although 55 percent of West Virginia’s Medicaid enrollees are enrolled in
                   managed care, the Unit received no managed-care referrals during our
                   review period. Additionally, the Unit did not provide OIG with timely
                   information concerning significant actions in cases pursued by the Unit,
                   and both the Northern and Southern Offices of United States Attorneys
                   reported that they are no longer included in the Unit’s investigations or
                   prosecutions. The Unit’s staff reported that the case management and
                   tracking system is inadequate. The Unit’s inventory logs did not include
                   many of the items purchased by the Unit, and physical inventory results
                   had not been reconciled with equipment records.
                   We recommend that the West Virginia Unit:
                   Open cases referred to the Unit within 60 days of the receipt of
                   referral and document all investigative activity
                   The Unit should make certain that complaints referred to the Unit are
                   investigated and opened, if appropriate, within the 60-day timeframe
                   established in the Unit’s policy. Additionally, the Unit should account for
                   all investigative activity that occurs while cases are in the preliminary
                   investigation status.




West Virginia State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-07-13-00080)       15
                   Ensure that all case files contain documented supervisory
                   approvals of opening and closing cases and documentation of
                   periodic supervisory reviews
                   The Unit should ensure that supervisors are approving the opening and
                   closing of investigations and that documentation thereof is contained in all
                   case files. Additionally, the Unit should ensure that supervisory reviews
                   are conducted periodically and are also noted in each case file.
                   Refer individuals to OIG for exclusion within the appropriate
                   timeframe
                   The Unit should make certain that individuals convicted of fraud, abuse,
                   and/or neglect are reported within 30 days of their sentencing, in
                   accordance with performance standard 8(f) of the revised MFCU
                   performance standards.
                   The Unit should continue sharing case lists with OIG, as
                   agreed between the Unit and OIG
                   The Unit should re-establish collaborative efforts with the
                   Northern and Southern Offices of United States Attorneys
                   Upgrade the Unit’s case management and tracking system
                   The Unit should implement a new case management and tracking system
                   that is not vulnerable to data discrepancies and inaccuracies. The new
                   system should also ensure that accurate QSR data is submitted to OIG.
                   The Unit should ensure accurate reporting of recovery data
                   The Unit should ensure that all items purchased by the Unit
                   are documented in the inventory log




West Virginia State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-07-13-00080)         16
                   UNIT COMMENTS AND OFFICE OF INSPECTOR GENERAL
                   RESPONSE
                   The West Virginia Unit concurred with all eight of our recommendations.
                   However, for two of the recommendations, the Unit disagreed with the
                   associated finding but stated that it agreed with the recommendation.
                   Regarding our first recommendation, involving opening cases timely and
                   documenting all investigative activity, the Unit concurred. The Unit was
                   aware of this issue and initiated action to correct this deficiency prior to
                   the onsite review. Supervisors are conducting formal, monthly meetings
                   with each investigator and reviewing case documentation to ensure
                   appropriate progression in referrals and cases. The Unit will implement a
                   new case management system in June 2014.
                   Regarding our second recommendation, involving the Unit’s efforts to
                   ensure that case files contained required documentation, the Unit
                   concurred. Unit supervisors now formally meet each month to ensure that
                   every case is being reviewed and that these reviews are documented.
                   Effective February 2013, case opening and closing approvals are part of
                   the case files.
                   Regarding our third recommendation, involving referring individuals for
                   exclusion to OIG within the appropriate timeframe, the Unit concurred.
                   The Unit is currently monitoring all cases that have been referred for
                   prosecution and will contact the prosecutors on a monthly basis to monitor
                   the progress of each case. Effective May 2013, the Unit began submitting
                   exclusion referrals to OIG within the 30-day timeframe.
                   Regarding our fourth recommendation, involving the Unit’s sharing case
                   lists with OIG, the Unit concurred with the recommendation to continue
                   sharing cases lists with OIG. However, the Unit disagreed with the
                   finding that the Unit did not provide OIG and other Federal agencies with
                   timely information about cases. In response to the recommendation, the
                   Unit stated that it began sharing its entire caseload list with OIG in
                   May 2013 and will continue to do so.
                   Regarding our fifth recommendation, involving re-establishing
                   collaborative efforts with the Northern and Southern Office of United
                   States Attorneys, the Unit concurred with the recommendation. However,
                   the Unit disagreed with the finding related to this recommendation and
                   asserts that it cooperates fully and coordinates with Federal partners. The
                   Unit stated that it currently collaborates with the Southern District and has
                   reached out to the Northern District to improve communications,
                   collaboration, and relationships.


West Virginia State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-07-13-00080)          17
                   Regarding our sixth recommendation, involving upgrading the case
                   management and tracking system, the Unit concurred. A new system
                   should be fully implemented by the end of June 2014.
                   Regarding our seventh recommendation, involving accurate reporting of
                   recovery data, the Unit concurred. The Unit has taken a number of steps
                   to ensure accurate reporting of recovery data and is working to correct the
                   report function of the current case-tracking software so that all data will be
                   captured and reported accurately.
                   Regarding our eighth recommendation, involving inventory logs, the Unit
                   concurred. The Unit director asserted that, by February 2013, the Unit
                   addressed all inventory deficiencies identified in the review, and, effective
                   July 2013, the Unit implemented an employee equipment log to track
                   inventory items issued to each employee.
                   We did not make changes to the report based on the Unit’s comments. The
                   full text of the Unit’s comments is provided in Appendix G.




West Virginia State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-07-13-00080)          18
                   APPENDIX A
                   1994 Performance Standards31
                   1. 	A Unit will be in conformance with all applicable statutes,
                       regulations and policy transmittals. In meeting this standard, the
                       Unit must meet, but is not limited to, the following requirements:
                          a.	 The Unit professional staff must consist of permanent employees
                              working full-time on Medicaid fraud and patient abuse matters.
                          b.	 The Unit must be separate and distinct from the State Medicaid
                              agency.
                          c.	 The Unit must have prosecutorial authority or an approved formal
                              procedure for referring cases to a prosecutor.
                          d.	 The Unit must submit annual reports, with appropriate 

                              certifications, on a timely basis.

                          e.	 The Unit must submit quarterly reports on a timely basis.
                          f.	 The Unit must comply with the Americans with Disabilities Act,
                              the Equal Employment opportunity requirements, the Drug Free
                              workplace requirements, Federal lobbying restrictions, and other
                              such rules that are made conditions of the grant.
                   2. 	A Unit should maintain staff levels in accordance with staffing
                       allocations approved in its budget. In meeting this standard, the
                       following performance indicators will be considered:
                          a.	 Does the Unit employ the number of staff that was included in the
                              Unit's budget as approved by the OIG?
                          b.	 Does the Unit employ the number of attorneys, auditors, and
                              investigators that were approved in the Unit's budget?
                          c.	 Does the Unit employ a reasonable size of professional staff in
                              relation to the State's total Medicaid program expenditures?
                          d.	 Are the Unit office locations established on a rational basis and are
                              such locations appropriately staffed?
                   3. 	A Unit should establish policies and procedures for its operations,
                       and maintain appropriate systems for case management and case
                       tracking. In meeting this standard, the following performance
                       indicators will be considered:
                          a.	 Does the Unit have policy and procedure manuals?



                   31
                        59 Fed. Reg. 49080, Sept. 26, 1994.

West Virginia State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-07-13-00080)            19
                        b.	 Is an adequate, computerized case management and tracking
                            system in place?
                   4. 	A Unit should take steps to ensure that it maintains an adequate
                       workload through referrals from the State Medicaid agency and
                       other sources. In meeting this standard, the following performance
                       indicators will be considered:
                        a.	 Does the Unit work with the State Medicaid agency to ensure
                            adequate fraud referrals?
                        b.	 Does the Unit work with other agencies to encourage fraud
                            referrals?
                        c.	 Does the Unit generate any of its own fraud cases?
                        d.	 Does the Unit ensure that adequate referrals of patient abuse
                            complaints are received from all sources?
                   5. 	A Unit’s case mix, when possible, should cover all significant
                       provider types. In meeting this standard, the following performance
                       indicators will be considered:
                        a.	 Does the Unit seek to have a mix of cases among all types of
                            providers in the State?
                        b.	 Does the Unit seek to have a mix of Medicaid fraud and Medicaid
                            patient abuse cases?
                        c.	 Does the Unit seek to have a mix of cases that reflect the
                            proportion of Medicaid expenditures for particular provider
                            groups?
                        d.	 Are there any special Unit initiatives targeting specific provider
                            types that affect case mix?
                        e.	 Does the Unit consider civil and administrative remedies when
                            appropriate?
                   6. 	A Unit should have a continuous case flow, and cases should be
                       completed in a reasonable time. In meeting this standard, the
                       following performance indicators will be considered:
                        a.	 Is each stage of an investigation and prosecution completed in an
                            appropriate time frame?
                        b.	 Are supervisors approving the opening and closing of 

                            investigations?

                        c.	 Are supervisory reviews conducted periodically and noted in the
                            case file?




West Virginia State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-07-13-00080)            20
                   7. A Unit should have a process for monitoring the outcome of cases.
                      In meeting this standard, the following performance indicators will be
                      considered:
                        a.	 The number, age, and type of cases in inventory.
                        b.	 The number of referrals to other agencies for prosecution.
                        c.	 The number of arrests and indictments.
                        d.	 The number of convictions.
                        e.	 The amount of overpayments identified.
                        f.	 The amount of fines and restitution ordered.
                        g.	 The amount of civil recoveries.
                        h.	 The numbers of administrative sanctions imposed.
                   8. 	A Unit will cooperate with the OIG and other Federal agencies,
                       whenever appropriate and consistent with its mission, in the
                       investigation and prosecution of health care fraud. In meeting this
                       standard, the following performance indicators will be considered:
                        a.	 Does the Unit communicate effectively with the OIG and other
                            Federal agencies in investigating or prosecuting health care fraud
                            in their State?
                        b.	 Does the Unit provide OIG regional management, and other
                            Federal agencies, where appropriate, with timely information
                            concerning significant actions in all cases being pursued by the
                            Unit?
                        c.	 Does the Unit have an effective procedure for referring cases,
                            when appropriate, to Federal agencies for investigation and other
                            action?
                        d.	 Does the Unit transmit to the OIG, for purposes of program
                            exclusions under section 1128 of the Social Security Act, reports
                            of convictions, and copies of Judgment and Sentence or other
                            acceptable documentation within 30 days or other reasonable time
                            period?
                   9. 	A Unit should make statutory or programmatic recommendations,
                       when necessary, to the State government. In meeting this standard,
                       the following performance indicators will be considered:
                        a.	 Does the Unit recommend amendments to the enforcement
                            provisions of the State's statutes when necessary and appropriate to
                            do so?
                        b.	 Does the Unit provide program recommendations to State 

                            Medicaid agency when appropriate? 



West Virginia State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-07-13-00080)            21
                        c.	 Does the Unit monitor actions taken by State legislature or State
                            Medicaid agency in response to recommendations?
                    10. 	A Unit should periodically review its memorandum of
                         understanding (MOU) with the State Medicaid agency and seek
                         amendments, as necessary, to ensure it reflects current law and
                         practice. In meeting this standard, the following performance
                         indicators will be considered:
                        a.	 Is the MOU more than 5 years old?
                        b.	 Does the MOU meet Federal legal requirements?
                        c.	 Does the MOU address cross-training with the fraud detection staff
                            of the State Medicaid agency?
                        d.	 Does the MOU address the Unit’s responsibility to make program
                            recommendations to the Medicaid agency and monitor actions
                            taken by the Medicaid agency concerning those recommendations?
                   11. 	The Unit director should exercise proper fiscal control over the
                        Unit resources. In meeting this standard, the following performance
                        indicators will be considered:
                        a.	 Does the Unit director receive on a timely basis copies of all fiscal
                            and administrative reports concerning Unit expenditures from the
                            State parent agency?
                        b.	 Does the Unit maintain an equipment inventory?
                        c.	 Does the Unit apply generally accepted accounting principles in its
                            control of Unit funding?
                   12. 	A Unit should maintain an annual training plan for all
                        professional disciplines. In meeting this standard, the following
                        performance indicators will be considered:
                        a.	 Does the Unit have a training plan in place and funds available to
                            fully implement the plan?
                        b.	 Does the Unit have a minimum number of hours training
                            requirement for each professional discipline, and does the staff
                            comply with the requirement?
                        c.	 Are continuing education standards met for professional staff?
                        d.	 Does the training undertaken by staff add to the mission of the
                            Unit?




West Virginia State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-07-13-00080)            22
                   APPENDIX B
                   2012 Revised Performance Standards32
                   1. 	A unit conforms with all applicable statutes, regulations, and
                       policy directives, including:
                          a.	 Section 1903(q) of the Social Security Act, containing the basic
                              requirements for operation of a MFCU;
                          b.	 Regulations for operation of a MFCU contained in 42 CFR part
                              1007;
                          c.	 Grant administration requirements at 45 CFR part 92 and Federal
                              cost principles at 2 CFR part 225;
                          d.	 OIG policy transmittals as maintained on the OIG Web site; and
                          e.	 Terms and conditions of the notice of the grant award.
                   2. 	A Unit maintains reasonable staff levels and office locations in
                       relation to the State’s Medicaid program expenditures and in
                       accordance with staffing allocations approved in its budget.
                          a.	 The Unit employs the number of staff that is included in the Unit’s
                              budget estimate as approved by OIG.
                          b.	 The Unit employs a total number of professional staff that is
                              commensurate with the State’s total Medicaid program
                              expenditures and that enables the Unit to effectively investigate
                              and prosecute (or refer for prosecution) an appropriate volume of
                              case referrals and workload for both Medicaid fraud and patient
                              abuse and neglect.
                          c.	 The Unit employs an appropriate mix and number of attorneys,
                              auditors, investigators, and other professional staff that is both
                              commensurate with the State’s total Medicaid program
                              expenditures and that allows the Unit to effectively investigate and
                              prosecute (or refer for prosecution) an appropriate volume of case
                              referrals and workload for both Medicaid fraud and patient abuse
                              and neglect.
                          d.	 The Unit employs a number of support staff in relation to its
                              overall size that allows the Unit to operate effectively.
                          e.	 To the extent that a Unit maintains multiple office locations, such
                              locations are distributed throughout the State, and are adequately


                   32
                        77 Fed. Reg. 32645, June 1, 2012.

West Virginia State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-07-13-00080)               23
                            staffed, commensurate with the volume of case referrals and
                            workload for each location.
                   3. 	A Unit establishes written policies and procedures for its
                       operations and ensures that staff are familiar with, and adhere to,
                       policies and procedures.
                        a.	 The Unit has written guidelines or manuals that contain current
                            policies and procedures, consistent with these performance
                            standards, for the investigation and (for those Units with
                            prosecutorial authority) prosecution of Medicaid fraud and patient
                            abuse and neglect.
                        b.	 The Unit adheres to current policies and procedures in its 

                            operations. 

                        c.	 Procedures include a process for referring cases, when appropriate,
                            to Federal and State agencies. Referrals to State agencies,
                            including the State Medicaid agency, should identify whether
                            further investigation or other administrative action is warranted,
                            such as the collection of overpayments or suspension of payments.
                        d.	 Written guidelines and manuals are readily available to all Unit
                            staff, either online or in hard copy.
                        e.	 Policies and procedures address training standards for Unit 

                            employees. 

                   4. 	A Unit takes steps to maintain an adequate volume and quality of
                       referrals from the State Medicaid agency and other sources.
                        a.	 The Unit takes steps, such as the development of operational
                            protocols, to ensure that the State Medicaid agency, managed care
                            organizations, and other agencies refer to the Unit all suspected
                            provider fraud cases. Consistent with 42 CFR 1007.9(g), the Unit
                            provides timely written notice to the State Medicaid agency when
                            referred cases are accepted or declined for investigation.
                        b.	 The Unit provides periodic feedback to the State Medicaid agency
                            and other referral sources on the adequacy of both the volume and
                            quality of its referrals.
                        c.	 The Unit provides timely information to the State Medicaid or
                            other agency when the Medicaid or other agency requests
                            information on the status of MFCU investigations, including when
                            the Medicaid agency requests quarterly certification pursuant to
                            42 CFR 455.23(d)(3)(ii).



West Virginia State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-07-13-00080)          24
                        d.	 For those States in which the Unit has original jurisdiction to
                            investigate or prosecute patient abuse and neglect cases, the Unit
                            takes steps, such as the development of operational protocols, to
                            ensure that pertinent agencies refer such cases to the Unit,
                            consistent with patient confidentiality and consent. Pertinent
                            agencies vary by State but may include licensing and certification
                            agencies, the State Long Term Care Ombudsman, and adult
                            protective services offices.
                        e.	 The Unit provides timely information, when requested, to those
                            agencies identified in (D) above regarding the status of referrals.
                        f.	 The Unit takes steps, through public outreach or other means, to
                            encourage the public to refer cases to the Unit.
                   5. 	A Unit takes steps to maintain a continuous case flow and to
                       complete cases in an appropriate timeframe based on the
                       complexity of the cases.
                        a.	 Each stage of an investigation and prosecution is completed in an
                            appropriate timeframe.
                        b.	 Supervisors approve the opening and closing of all investigations
                            and review the progress of cases and take action as necessary to
                            ensure that each stage of an investigation and prosecution is
                            completed in an appropriate timeframe.
                        c.	 Delays to investigations and prosecutions are limited to situations
                            imposed by resource constraints or other exigencies.
                   6. 	A Unit’s case mix, as practicable, covers all significant provider
                       types and includes a balance of fraud and, where appropriate,
                       patient abuse and neglect cases.
                        a.	 The Unit seeks to have a mix of cases from all significant provider
                            types in the State.
                        b.	 For those States that rely substantially on managed care entities for
                            the provision of Medicaid services, the Unit includes a
                            commensurate number of managed care cases in its mix of cases.
                        c.	 The Unit seeks to allocate resources among provider types based
                            on levels of Medicaid expenditures or other risk factors. Special
                            Unit initiatives may focus on specific provider types.
                        d.	 As part of its case mix, the Unit maintains a balance of fraud and
                            patient abuse and neglect cases for those States in which the Unit
                            has original jurisdiction to investigate or prosecute patient abuse
                            and neglect cases.

West Virginia State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-07-13-00080)             25
                        e.	 As part of its case mix, the Unit seeks to maintain, consistent with
                            its legal authorities, a balance of criminal and civil fraud cases.
                   7. 	A Unit maintains case files in an effective manner and develops a
                       case management system that allows efficient access to case
                       information and other performance data.
                        a.	 Reviews by supervisors are conducted periodically, consistent with
                            MFCU policies and procedures, and are noted in the case file.
                        b.	 Case files include all relevant facts and information and justify the
                            opening and closing of the cases.
                        c.	 Significant documents, such as charging documents and settlement
                            agreements, are included in the file.
                        d.	 Interview summaries are written promptly, as defined by the Unit’s
                            policies and procedures.
                        e.	 The Unit has an information management system that manages and
                            tracks case information from initiation to resolution.
                        f.	 The Unit has an information management system that allows for
                            the monitoring and reporting of case information, including the
                            following:
                                 1.	 The number of cases opened and closed and the reason that
                                     cases are closed.
                                 2.	 The length of time taken to determine whether to open a
                                     case referred by the State Medicaid agency or other
                                     referring source.
                                 3.	 The number, age, and types of cases in the Unit’s
                                     inventory/docket.
                                 4.	 The number of referrals received by the Unit and the
                                     number of referrals by the Unit to other agencies.
                                 5.	 The dollar amount of overpayments identified.
                                 6.	 The number of cases criminally prosecuted by the Unit or
                                     referred to others for prosecution, the number of
                                     individuals or entities charged, and the number of pending
                                     prosecutions.
                                 7.	 The number of criminal convictions and the number of civil
                                     judgments.
                                 8.	 The dollar amount of fines, penalties, and restitution
                                     ordered in a criminal case and the dollar amount of


West Virginia State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-07-13-00080)             26
                                      recoveries and the types of relief obtained through civil
                                      judgments or prefiling settlements.
                   8. 	A Unit cooperates with OIG and other Federal agencies in the
                       investigation and prosecution of Medicaid and other health care
                       fraud.
                        a.	 The Unit communicates on a regular basis with OIG and other
                            Federal agencies investigating or prosecuting health care fraud in
                            the State.
                        b.	 The Unit cooperates and, as appropriate, coordinates with OIG’s
                            Office of Investigations and other Federal agencies on cases being
                            pursued jointly, cases involving the same suspects or allegations,
                            and cases that have been referred to the Unit by OIG or another
                            Federal agency.
                        c.	 The Unit makes available, to the extent authorized by law and
                            upon request by Federal investigators and prosecutors, all
                            information in its possession concerning provider fraud or fraud in
                            the administration of the Medicaid program.
                        d.	 For cases that require the granting of “extended jurisdiction” to
                            investigate Medicare or other Federal health care fraud, the Unit
                            seeks permission from OIG or other relevant agencies under
                            procedures as set by those agencies.
                        e.	 For cases that have civil fraud potential, the Unit investigates and
                            prosecutes such cases under State authority or refers such cases to
                            OIG or the U.S. Department of Justice.
                        f.	 The Unit transmits to OIG, for purposes of program exclusions
                            under section 1128 of the Social Security Act, all pertinent
                            information on MFCU convictions within 30 days of sentencing,
                            including charging documents, plea agreements, and sentencing
                            orders.
                        g.	 The Unit reports qualifying cases to the Healthcare Integrity &
                            Protection Databank, the National Practitioner Data Bank, or
                            successor data bases.
                   9. 	A Unit makes statutory or programmatic recommendations, when
                       warranted, to the State government.
                        a.	 The Unit, when warranted and appropriate, makes statutory
                            recommendations to the State legislature to improve the operation
                            of the Unit, including amendments to the enforcement provisions
                            of the State code.


West Virginia State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-07-13-00080)             27
                        b.	 The Unit, when warranted and appropriate, makes other regulatory
                            or administrative recommendations regarding program integrity
                            issues to the State Medicaid agency and to other agencies
                            responsible for Medicaid operations or funding. The Unit monitors
                            actions taken by the State legislature and the State Medicaid or
                            other agencies in response to recommendations.
                    10. 	A Unit periodically reviews its Memorandum of Understanding
                         (MOU) with the State Medicaid agency to ensure that it reflects
                         current practice, policy, and legal requirements.
                        a.	 The MFCU documents that it has reviewed the MOU at least every
                            5 years, and has renegotiated the MOU as necessary, to ensure that
                            it reflects current practice, policy, and legal requirements.
                        b.	 The MOU meets current Federal legal requirements as contained in
                            law or regulation, including 42 CFR 455.21, “Cooperation with
                            State Medicaid fraud control units,” and 42 CFR 455.23,
                            “Suspension of payments in cases of fraud.”
                        c.	 The MOU is consistent with current Federal and State policy,
                            including any policies issued by OIG or the Centers for Medicare
                            & Medicaid Services (CMS).
                        d.	 Consistent with Performance Standard 4, the MOU establishes a
                            process to ensure the receipt of an adequate volume and quality of
                            referrals to the Unit from the State Medicaid agency.
                        e.	 The MOU incorporates by reference the CMS Performance
                            Standard for Referrals of Suspected Fraud from a State Agency to
                            a Medicaid Fraud Control Unit.
                   11. 	A Unit exercises proper fiscal control over Unit resources.
                        a.	 The Unit promptly submits to OIG its preliminary budget
                            estimates, proposed budget, and Federal financial expenditure
                            reports.
                        b.	 The Unit maintains an equipment inventory that is updated 

                            regularly to reflect all property under the Unit’s control. 

                        c.	 The Unit maintains an effective time and attendance system and
                            personnel activity records.
                        d.	 The Unit applies generally accepted accounting principles in its
                            control of Unit funding.
                        e.	 The Unit employs a financial system in compliance with the
                            standards for financial management systems contained in
                            45 CFR 92.20.

West Virginia State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-07-13-00080)          28
                   12. 	A Unit conducts training that aids in the mission of the Unit.
                        a.	 The Unit maintains a training plan for each professional discipline
                            that includes an annual minimum number of training hours and that
                            is at least as stringent as required for professional certification.
                        b.	 The Unit ensures that professional staff comply with their training
                            plans and maintain records of their staff’s compliance.
                        c.	 Professional certifications are maintained for all staff, including
                            those that fulfill continuing education requirements.
                        d.	 The Unit participates in MFCU related training, including training
                            offered by OIG and other MFCUs, as such training is available and
                            as funding permits.
                        e.	 The Unit participates in cross training with the fraud detection staff
                            of the State Medicaid agency. As part of such training, Unit staff
                            provide training on the elements of successful fraud referrals and
                            receive training on the role and responsibilities of the State
                            Medicaid agency.




West Virginia State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-07-13-00080)             29
                        APPENDIX C
                        Population and Sample Distribution of Case Files Open at Any
                        Time During Fiscal Years (FY) 2010 Through 2012

                                               Population            Population of Case         Sample Case           Sample Case Files
 Data Element Description
                                             of Case Files            Files (Percentage)               Files              (Percentage)

 Fraud—Civil (Open)                                         6                              3                   3                          3

 Fraud—Civil (Closed)                                     47                           23.7                  20                          20

 Fraud—Criminal (Open)                                    39                           19.7                  18                          18

 Fraud—Criminal (Closed)                                  32                           16.2                  14                          14

 Abuse—Civil (Open)                                         0                              0                   0                          0

 Abuse—Civil (Closed)                                       0                              0                   0                          0

 Abuse—Criminal (Open)                                    28                           14.1                  17                         17

 Abuse—Criminal (Closed)                                  29                           14.6                  17                          17

 Patient Funds-— Civil (Open)                               0                              0                   0                          0

 Patient Funds— Civil (Closed)                              0                              0                   0                          0

 Patient Funds-—Criminal (Open)                             7                           3.5                    5                         5

 Patient Funds—Criminal (Closed)                          10                            5.1                    6                          6

   Total                                                 198                            100                 100                         100
           Source: Office of Inspector General analysis of West Virginia’s Medicaid Fraud Control Unit Quarterly Statistical Reports,
           FYs 2010–2012.




West Virginia State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-07-13-00080)                                                    30
                      APPENDIX D
                      Investigations Opened and Closed By Provider Category for
                      Fiscal Years (FY) 2010 Through 2012
        Table D-1: Fraud Investigations

         Provider Category                         FY 2010                 FY 2011                FY 2012

         Facilities                          Opened       Closed     Opened       Closed     Opened    Closed

            Hospitals                                0          1            0          0         0                0

            Nursing Facilities                       0          0            3          1         0                1
            Other Long-Term Care
                                                     0          0            1          0         1                1
            Facilities
            Substance Abuse Treatment
                                                     0          0            0          0         0                0
            Centers
            Other                                    2          0            2           1        0                1

           Subtotal                                  2          1            6          2         1                3

         Practitioners                        Opened      Closed      Opened       Closed    Opened         Closed
            Doctors of Medicine or
                                                     1          6            4          1         5                3
            Osteopathy

            Dentists                                 1          0            0           0        1                1

            Podiatrists                              0          0            0           1        0                0

            Optometrists/Opticians                   0          1            0           0        0                0

            Counselors/Psychologists                 0          0            0           0        0                0

            Chiropractors                            0          0            0           0        0                0

            Other                                    0          0            0           0        0                0

           Subtotal                                  2          7            4           2        6                4

         Medical Support                      Opened      Closed      Opened       Closed    Opened         Closed

            Pharmacies                               0          0            0           1        1                1
            Pharmaceutical
                                                   10          10           18          15        7             10
            Manufacturers
            Durable Medical Equipment
                                                     0          2            0           0        1                1
            and/or Supplies
            Laboratories                             0          0            1           0        1                1

            Transportation Services                  1          0            0           1        1                4

            Home Health Care Agencies                0          2            3           2        3                1

            Home Health Care Aides                   4          0            3           1       11                3

            Nurses, Physician Assistants,
            Nurse Practitioners, Certified           1          1            0           0        0                1
            Nurse Aides

            Radiologists                             0          0            0           0        0                0

            Medical Support—Other                    1          0            0           0        0                1

           Subtotal                                17          15           25          20       25             22


West Virginia State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-07-13-00080)                         31
         Table D-1 (Continued): Fraud Investigations

     Program Related                          Opened         Closed        Opened        Closed     Opened        Closed

       Managed Care                                   1               1            0            0        0                0

       Medicaid Program
                                                      0               0            0            0        0                0
       Administration

       Billing Company                                0               0            0            0        0                0

       Other                                          0               0            0            0        0                0

      Subtotal                                        1               1            0            0        0                0

      Total Provider Categories                     22            24             35            24       32            30

        Source: Office of Inspector General (OIG) analysis of Unit Annual Reports, FYs 2010–2012.

        Table D-2: Patient Abuse and Neglect Investigations

   Provider Category                               FY 2010                      FY 2011                 FY 2012


                                            Opened         Closed         Opened        Closed      Opened       Closed

      Nursing Facility                               2             0               1            1            1        1

      Other Long-Term Care                           1             0               0            0            1        0

      Nurses/Physician’s
      Assistant/Nurse                                0             0               1            1            1        0
      Practitioner/

      Certified Nurse Aides                          0             0               1            0            0        1

      Home Health Aides                              7             4               3           11            7        7

      Other                                          4             3               0            1            0        0

     Total                                          14             7               6           14        10           9

        Source: OIG analysis of Unit Annual Reports, FYs 2010-2012.

        Table D-3: Patient Funds Investigations

   Provider Category                               FY 2010                      FY 2011                 FY 2012


                                            Opened         Closed         Opened        Closed      Opened       Closed

      Non-Direct Care                                0             0               1            2            0        0

      Nurses/Physician’s
      Assistant/Nurse                                0             0               0            0            0        0
      Practitioner/

      Certified Nurse Aides                          0             0               0            0            0        0

      Other                                          2             5               2            4            4        1

     Total                                           2             5               3            6            4        1

        Source: OIG analysis of Unit Annual Reports, FYs 2010-2012.




West Virginia State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-07-13-00080)                                         32
                      APPENDIX E
                      Point Estimates and 95-Percent Confidence Intervals Based on
                      Our Reviews of Case Files
                      We calculated confidence intervals for key data points for the case file
                      reviews. The sample sizes, point estimates, and 95-percent confidence
                      intervals are given for the each of the following:
 Table E-1: Confidence Intervals for Case File Review Data

                                                       Sample
 Data Element Description                                               Point Estimate             95-Percent Confidence Interval
                                                         Size

 Cases opened more than 60 days of
                                                             76                    69.7%                            61.9%–76.6%
 receiving the respective referrals

 Case files missing supervisory approval
                                                             81                    19.8%                            14.3%–26.7%
 for the opening of investigations

 Case files missing documented
 supervisory approval for the closing of                     52                    26.9%                            19.2%–36.4%
 investigations

 Abuse and neglect case files missing
 documented periodic supervisory reviews                     44                    72.7%                            62.4%–81.1%
 (30-day case review)

 Fraud case files missing documented
 periodic supervisory reviews                                35                    34.3%                            24.0%–46.2%
 (90-day case review)

 Case files missing documented periodic
                                                             79                    55.7%                            47.8%–63.3%
 supervisory reviews (any case)

  Source: Office of Inspector General analysis of West Virginia’s Medicaid Fraud Control Unit case files, 2013.




West Virginia State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-07-13-00080)                                           33
                         APPENDIX F
                         Medicaid Fraud Control Unit Referrals by Provider Category
                         for Fiscal Years (FY) 2010 Through 2012
                                               FY 2010                                    FY 2011                                  FY 2012

                                               Abuse &         Patient                    Abuse &      Patient                    Abuse &      Patient
     Referral Source              Fraud                                      Fraud                                    Fraud
                                                Neglect        Funds                       Neglect     Funds                       Neglect     Funds
     Medicaid Agency –
     (Bureau for Medical
     Services, Office of
                                        1               1             0           10             3             4          33              10       21
     Quality and
     Program Integrity) –
              1
     PI/SURS
     Medicaid Agency –
                                       20               4             2           18            12             7            4              0        2
     Other

     State Survey &
                                        4             93              9            3            92             8            6             52       13
     Certification

     Other State
                                       11               8             3           10             2             3            0              0        0
     Agencies

     Licensing Board                    1               0             0            0            0              0            1              0        0

     Law Enforcement                    0               0             1            1             1             1            1              1        0

     Office of Inspector
                                        2               0             0            1             0             0            3              1        0
     General

     Prosecutors                        0               0             0            0             0             0            0              0        0

     Providers                          2               0             0            6            1              0          12               4        2

     Provider
                                        0               0             0            0             0             0            0              0        0
     Associations

     Private Health
                                        0               0             0            0            0              0            0              0        0
     Insurer

     Long Term Care
                                        0               0             0            0            0              0            0              0        0
     Ombudsman

     Adult Protective
                                        0               5             0            3           10              6            0              5        0
     Services

     Private Citizens                  19               4             4           15             5             1          22               1        2

     MFCU Hotline                       0               0             1            0            0              0            0              1        0

     Other                             24             12              1           29            10             3          29              10        1

       Total                           84            127             21           96           136           33          111              85       21

       Annual Total                                                232                                      265                                   237
 1
     "PI" = "program integrity"; "SURS" = "Surveillance and Utilization Review Subsystem." 


 Source: Office of Inspector General analysis of West Virginia’s Medicaid Fraud Control Unit Quarterly Statistical Reports, FYs 2010-2012. 





West Virginia State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-07-13-00080)                                                   34
                   APPENDIX G
                   Unit Comments




West Virginia State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-07-13-00080)   35
West Virginia State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-07-13-00080)   36
West Virginia State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-07-13-00080)   37
West Virginia State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-07-13-00080)   38
West Virginia State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-07-13-00080)   39
West Virginia State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-07-13-00080)   40
              The West Virginia Medicaid Fraud Control Unit is dedicated to protecting West Virginia's
              vulnerable citizens and the integrity of its healthcare programs, and is committed to continuous
              improvement and exceeding the established Perf01mance Standards. We look forward to the
              challenges ahead. Please let us know if you require further inf=ation or have any additional
              questions.


               Sincerely,
                   /S/
              Trina C. Crowder, Director
              West Virginia Medicaid Fraud Control Unit
              Office of Inspector General
              West Virginia Department of Health and Human Resources




                                                                                                             7




West Virginia State Medicaid Fraud Control Unit; 2013 Onsite Review (OEI-07-13-00080)                            41
                   ACKNOWLEDGEMENTS
                   This report was prepared under the direction of Brian T. Pattison, Regional
                   Inspector General for Evaluation and Inspections in the Kansas City
                   regional office.
                   Brian T. Whitley served as the team leader for this study. Other Office of
                   Evaluation and Inspections staff who conducted the study include
                   Thomas Brannon, Michael J. Brown, and Jordan R. Clementi. Office of
                   Investigations staff who conducted the study include Shawn McAleer.
                   Central office staff who contributed include Christine Moritz and
                   Sherri Weinstein.




West Virginia State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-07-13-00080)           42
                Office of Inspector General
                                 http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
